No. 21IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
LEON TOLLETTE,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
__________________________________________________________
Petitioner Leon Tollette, through undersigned counsel, moves pursuant to
Supreme Court Rule 39.1 for leave to proceed in forma pauperis in his concurrently
filed Petition for Writ of Certiorari. Mr. Tollette is indigent and has been appointed
counsel in state and federal court.
As to his federal proceedings, the United States District Court for the Middle
District of Georgia issued an order appointing counsel pursuant to 18 U.S.C. § 3599.
See attached Order, at Appendix A. The Eleventh Circuit Court of Appeals likewise
issued an order appointing counsel pursuant to 18 U.S.C. § 3599. See attached Order,
at Appendix B.
Undersigned counsel hereby certify that Mr. Tollette remains indigent. Mr.
Tollette requests that this Court allow him to proceed in forma pauperis.

Respectfully submitted,
/s/ Anna M. Arceneaux
Anna M. Arceneaux (Ga. 401554)*
* Counsel of Record
Vanessa J. Carroll (Ga. 993425)
Georgia Resource Center
104 Marietta Street NW, Suite 260
Atlanta, Georgia 30303
anna.arceneaux@garesource.org
vanessa.carroll@garesource.org
(404) 222-9202
COUNSEL FOR PETITIONER

APPENDIX A

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF GEORGIA
COLUMBUS DIVISION
LEON TOLLETTE,

:
:
Petitioner,
:
:
VS.
:
:
WARDEN, GDCP,
:
:
Respondent.
:
____________________________ __

CASE NO. 4:14-CV-110 (CDL)

ORDER
Petitioner, LEON TOLLETTE, has filed a Motion for Appointment
of Counsel pursuant to 18 U.S.C. § 3599.
I.

(ECF No. 3).

PROCEDURAL HISTORY

Petitioner filed his motion for appointment of counsel along
with his Petition for Writ of Habeas Corpus under 28 U.S.C. § 2254.
(ECF Nos. 1, 3).

According to his federal habeas corpus petition,

on November 3, 1997, Petitioner pled guilty in the Superior Court
of Muscogee County to malice murder, armed robbery, two counts of
aggravated assault, possession of a firearm by a convicted felon,
and possession of a firearm during the commission of a crime.
No. 1 at 6).

(ECF

At the conclusion of his sentencing trial, the jury

sentenced him to death on the charge of malice murder.
at 6); Tollette v. State, 280 Ga. 100, 100-01 (2005).

(ECF No. 1
In addition

to the death sentence, Petitioner received a concurrent life sentence
for armed robbery; two concurrent 20-year sentences for the two
counts of aggravated assault; a concurrent 5-year sentence for

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 2 of 8

possession of a firearm by a convicted felon; and a second concurrent
5-year sentence for possession of a firearm during the commission
of a crime.

(ECF No. 1 at 6-7)

New counsel was appointed and filed a motion for new trial, which
was denied on January 28, 1999.
New counsel was appointed for the direct appeal and the Georgia
Supreme Court affirmed his conviction and sentence on November 5,
2005 and denied his motion for reconsideration on December 2, 2005.
Tollette, 280 Ga. at 10; (ECF No. 1 at 7).
Following a denial of certiorari by the United States Supreme
Court on October 2, 2006, Petitioner filed a habeas corpus petition
in the Butts County Superior Court on August 7, 2007.
at 8).

(ECF No. 1

After an evidentiary hearing, the court denied the writ on

February 18, 2013.

(ECF No. 1 at 8).

Petitioner applied to the Georgia Supreme Court for an extension
of time in which to file his Application for a Certificate of Probable
Cause to Appeal.
2013.

The court granted the extension on February 27,

(ECF No. 1 at 8).

Petitioner filed his Application for a

Certificate of Probable Cause to Appeal on May 20, 2013 and the court
denied the application on March 28, 2014.

(ECF No. 1 at 8)

motion for reconsideration was denied on April 22, 2014.

His

(ECF No.

1 at 8).
On May 6, 2014, Petitioner filed his federal habeas petition
in this Court.

(ECF No. 1).

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 3 of 8

II.

APPOINTMENT OF COUNSEL

18 U.S.C. § 3599(a)(2) provides as follows:
In any post conviction proceeding under section 2254 or
2255 of Title 28, United States Code, seeking to vacate
or set aside a death sentence, any defendant who is or
becomes
financially
unable
to
obtain
adequate
representation or investigative, expert, or other
reasonably necessary services shall be entitled to the
appointment of one or more attorneys and the furnishing
of such other services in accordance with subsection (b)
through (f).

In this case, Petitioner has filed a Motion for Appointment of
Counsel, Motion for Leave to Proceed In Forma Pauperis,1 and a
Petition for Writ of Habeas Corpus under 28 U.S.C. § 2254.
Petitioner’s filings show that he is “financially unable to obtain
adequate representation.”

18 U.S.C § 3599(a)(2).

Under these

circumstances, Petitioner is entitled to appointment of counsel.
The Court must next determine whether 18 U.S.C. § 3599 permits
it to appoint Petitioner’s requested counsel–Brian S. Kammer, who
is the Executive Director of the Georgia Appellate Practice and
Education Resource Center (“Georgia Resource Center”) and Kirsten
Salchow, a Staff Attorney at the Georgia Resource Center.

Because

of the seriousness of the death penalty and the unique and complex
nature of this kind of litigation, counsel must have a certain level
of experience before being eligible for appointment under § 3599.
For post-judgment appointments, as in this case, “at least one

1 To the extent Petitioner seeks leave to proceed without prepayment of
the filing fee (ECF No. 2), his motion to proceed in forma pauperis is moot
because he paid the $5.00 filing fee.

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 4 of 8

attorney so appointed must have been admitted to practice in the court
of appeals for not less than five years, and must have had not less
than three years experience in the handling of appeals in that court
in felony cases.”

18 U.S.C. § 3599(c).

Based on the affidavit

submitted by Kammer, it appears that he has the appropriate
experience to qualify for appointment under § 3599(c).
3-1).

(ECF No.

18 U.S.C. § 3599(d) provides the Court may, “for good cause”

appoint another attorney whose “background, knowledge, or experience
would . . . enable . . . her to properly represent the defendant.”
The Court appoints Salchow pursuant to § 3599(d).

Moreover, it

appears that both Kammer and Salchow are familiar with the facts and
procedural history of Petitioner’s case because the Georgia Resource
Center has represented Petitioner since 2007. Given this,
Petitioner’s Motion for Appointment of Counsel is GRANTED.
The next issue that must be determined is the rate at which
counsel will be compensated.

The Administrative Office of the

United States Courts has approved $180.00 an hour, for both in-court
and out-of-court time.

Therefore, the Court finds that it is

appropriate to compensate Kammer and Salchow at a rate of $180.00
per hour.
Counsel is reminded that they may obtain investigative, expert,
or other services that are reasonably necessary for representation
of Petitioner; but they must obtain prior approval from the Court
for such services.

18 U.S.C. § 3599(f).

Ex parte requests for

payment of fees and expenses under § 3599(f) may not be considered

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 5 of 8

unless Petitioner makes a proper showing of the need for
confidentiality.

Id.

Fees and expenses for such services are

limited to $7,500.00 unless the Court certifies that a larger amount
is necessary and the Chief Judge of the Eleventh Circuit approves
the larger amount.

See 18 U.S.C § 3599(g)(2).

The following procedures for interim payments and reimbursement
of expenses shall apply during the course of this case:
A.

Submission of Vouchers

Counsel shall submit to the Clerk’s Office in Macon, Georgia,
once every month, an interim voucher on CJA Form 30, “Death Penalty
Proceedings:
Counsel.”

Appointment of and Authority to Pay Court Appointed

Compensation earned and reimbursable fees and expenses

incurred for each calendar month shall be claimed on an interim
voucher submitted no later than the fifth day of each subsequent
month, or the first business day thereafter if the fifth day of the
month is a Saturday, Sunday, or holiday.

Each interim voucher shall

be numbered sequentially and shall include the time period covered.
Interim vouchers shall be submitted in accordance with this schedule
and procedure even if little or no compensation, fees, or expenses
are claimed for the time period covered.

All interim vouchers shall

be supported by detailed and itemized statements of time expended
and fees and expenses incurred.
After an interim voucher is submitted to the Clerk’s Office in
Macon, Georgia, the Deputy Clerk assigned to this case will submit
it to the Court for approval.

The Court will then review the voucher,

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 6 of 8

particularly the amount of time claimed, and will authorize
compensation for the approved number of hours and for all
reimbursable fees and expenses reasonably incurred.

The Court will

endeavor to review and act on each voucher within 30 days of
submission.
At the conclusion of the representation, counsel shall submit
a final voucher for payment of time expended and fees and expenses
incurred during the final interim time period.

The final voucher

shall also set forth in detail, with supporting documentation, the
time expended and fees and expenses incurred for the entire case.
The final voucher shall also reflect all compensation and
reimbursement previously received on the appropriate line of the
form.
B.

Reimbursable Out-of-Pocket Expenses

Counsel may be reimbursed for out-of-pocket expenses (not
including fees or expenses relating to investigative, expert, or
other services that are reasonably necessary for the representation)
reasonably incurred during the representation.

Although neither §

3599 nor the applicable rules and regulations limit the amount of
out-of-pocket expenses that may be incurred, counsel should not incur
a single out-of-pocket expense in excess of $500.00 without prior
approval of the Court.

Approval may be sought by filing an

application with the Court stating (1) the nature of the expense,
(2) the estimated cost, and (3) the reason the expense is necessary
to the representation.

Recurring out-of-pocket expenses, such as

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 7 of 8

the cost of telephone toll calls, telegrams, photocopies,
facsimiles, and photographs, that total more than $500.00 on one or
more interim vouchers are not considered single expenses requiring
prior approval of the Court.
With respect to travel outside Atlanta for the purposes of
consulting with Petitioner or his former counsel, interviewing
witnesses, etc., the $500.00 rule shall be applied in the following
manner:

Travel expenses, such as airfare, mileage, parking fees,

meals, and lodging, may be claimed as itemized expenses.

Therefore,

if the total out-of-pocket expenses for a single trip will exceed
$500.00, the travel shall require prior approval of the Court.
Case-related travel by privately owned automobile shall be claimed
at the rate authorized by the government for business-related travel
by federal judiciary employees, plus parking fees, ferry fares, and
bridge, road, and tunnel tolls.

For information regarding the

current mileage rate for federal judiciary employees, counsel should
consult the Clerk’s Office in Macon, Georgia.

Transportation other

than by privately owned automobile should be claimed on an
actual-expense basis.

First-class air travel is prohibited.

Actual expenses incurred for meals and lodging while traveling
outside Atlanta, Georgia for case-related purposes must conform to
the prevailing limitations placed upon travel and subsistence
expenses for federal judiciary employees in accordance with existing
government travel regulations.

For information regarding per diem

rates for federal judiciary employees, as well as for specific

Case 4:14-cv-00110-CDL Document 6 Filed 05/07/14 Page 8 of 8

details concerning high-cost areas, counsel should consult the
Clerk’s Office in Macon, Georgia.
The cost of telephone toll calls, telegrams, photocopies,
facsimiles, and photographs may be reimbursable out-of-pocket
expenses if they are reasonably incurred.

However, general office

overhead (such as rent, secretarial assistance, and telephone
service) is not reimbursable; nor are items of a personal nature.
Finally, expenses for service of subpoenas on fact witnesses
are not reimbursable out-of-pocket expenses and should not be
included on any voucher.

Instead, such expenses will be paid by the

United States Marshals Service, but only upon prior approval by the
Court.

Payment of such expenses shall be governed by 28 U.S.C. §

1825.
SO ORDERED, this 7th day of May, 2014.

s/Clay D. Land
CLAY D. LAND
UNITED STATES DISTRICT JUDGE

APPENDIX B

Case: 16-17149

Date Filed: 10/04/2019

Page: 1 of 2

UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
ELBERT PARR TUTTLE COURT OF APPEALS BUILDING
56 Forsyth Street, N.W.
Atlanta, Georgia 30303
David J. Smith
Clerk of Court

For rules and forms visit
www.ca11.uscourts.gov

October 04, 2019
Vanessa Judith Carroll
Georgia Resource Center
303 ELIZABETH ST. NE
ATLANTA, GA 30307
Appeal Number: 16-17149-P
Case Style: Leon Tollette v. Warden
District Court Docket No: 4:14-cv-00110-CDL
Party To Be Represented: Leon Tollette
Dear Counsel:
We are pleased to advise that you have been appointed to represent on appeal the indigent
litigant named above. This work is comparable to work performed pro bono publico. The fee
you will receive likely will be less than your customary one due to limitations on the hourly rate
of compensation contained in the Criminal Justice Act (18 U.S.C. § 3006A), and consideration
of the factors contained in Addendum Four § (g)(1) of the Eleventh Circuit Rules.
Supporting documentation and a link to the CJA eVoucher application are available on the
internet at http://www.ca11.uscourts.gov/attorney-info/criminal-justice-act. For questions
concerning CJA eVoucher please contact our CJA Team by email at
cja_evoucher@ca11.uscourts.gov or phone 404-335-6167. For all other questions, please call
the "Reply To" number shown below.
Every motion, petition, brief, answer, response and reply filed must contain a Certificate of
Interested Persons and Corporate Disclosure Statement (CIP). Appellants/Petitioners must file a
CIP within 14 days after the date the case or appeal is docketed in this court;
Appellees/Respondents/Intervenors/Other Parties must file a CIP within 28 days after the case
or appeal is docketed in this court, regardless of whether appellants/petitioners have filed a CIP.
See FRAP 26.1 and 11th Cir. R. 26.1-1.
On the same day a party or amicus curiae first files its paper or e-filed CIP, that filer must also
complete the court's web-based CIP at the Web-Based CIP link on the court's website. Pro se

Case: 16-17149

Date Filed: 10/04/2019

Page: 2 of 2

filers (except attorneys appearing in particular cases as pro se parties) are not required or
authorized to complete the web-based CIP.
Your claim for compensation under the Act should be submitted within 60 days after issuance
of mandate or filing of a certiorari petition. We request that you enclose with your completed
CJA Voucher one additional copy of each brief, petition for rehearing, and certiorari petition
which you have filed. Please ensure that your voucher includes a detailed description of the
work you performed. Thank you for accepting this appointment under the Criminal Justice Act.
Sincerely,
DAVID J. SMITH, Clerk of Court
Reply to: David L. Thomas
Phone #: (404) 335-6171
CJA-1 Appointment of Counsel Letter

No. 21IN THE SUPREME COURT OF THE UNITED STATES
________________________________________________________
_________________________________________________________
LEON TOLLETTE,
Petitioner,
-vBENJAMIN FORD, Warden,
Georgia Diagnostic and Classification Prison,
Respondent
__________________________________________________________
PROOF OF SERVICE
__________________________________________________________
I declare that on January 8, 2021, pursuant to Supreme Court Rule 29, I
served the Motion for Leave to Proceed In Forma Pauperis on Respondent’s counsel
by filing a copy of the documents with this Court’s electronic filing system and by
directing that the documents be placed in an envelope and deposited with the
United States Postal Service for delivery to:
Sabrina D. Graham, Esp.
Senior Assistant Attorney General
40 Capitol Square, SW
Atlanta, GA 30334
Respectfully submitted,
/s/ Anna M. Arceneaux
Anna M. Arceneaux (Ga. 401554)*

